August 2008
Report No. AUD-08-014


FDIC’s Controls Over the CAMELS
Rating Review Process




            AUDIT REPORT
                                                              Report No. AUD-08-014                                                 August 2008

                                                              FDIC’s Internal Controls Over the CAMELS
                                                              Rating Review Process
            Federal Deposit Insurance Corporation
                                                              Audit Results
  Why We Did The Audit                                        The FDIC has established and implemented internal controls for reviewing draft risk
                                                              management ROEs, including the supervisory review of proposed CAMELS ratings.
  The audit objective was to assess the internal controls
  the FDIC has established over the CAMELS rating
                                                              Also, DSC has established a process for resolving disagreements between the EIC
  system for reviewing and changing proposed ratings          and Case Manager (CM) with respect to changes to proposed CAMELS ratings.
  included in draft risk management Reports of                The resolution process includes maintaining an open dialogue between the EIC and
  Examination (ROE). The six components of the                CM and requiring the CM to bring unresolved differences to the attention of the
  CAMELS rating system address the adequacy of                Regional Director, or designee, for resolution prior to completion of the draft ROE
  Capital, the quality of Assets, the capability of           review. However, review procedures do not require that changes to proposed
  Management, the quality and level of Earnings, the          CAMELS ratings, agreed to by the EIC, be documented or justified.
  adequacy of Liquidity, and the Sensitivity to market
  risk. A rating of 1 through 5 is given, with 1 having the   Further, we found that none of the six DSC regions centrally maintains a record of
  least regulatory concern and 5 having the greatest
  concern.
                                                              all of the CAMELS ratings changes or documentation justifying and approving
                                                              changes to EIC-proposed ratings. Consequently, the regions and DSC headquarters
  The audit focused on the Division of Supervision and        are not able to track or monitor changes to ratings resulting from the ROE review
  Consumer Protection’s (DSC) field and regional office       process. Due to the absence of such centrally-maintained records, we were not able
  processes for reviewing proposed CAMELS ratings             to determine the frequency of, or justification and approval for, changes to EIC-
  from the point at which the FDIC Examiner-in-Charge         proposed ratings.
  (EIC) has notified the financial institution of the
  proposed ratings and has electronically submitted the       However, two regions did maintain records that were useful. Specifically, the
  draft ROE for supervisory review. We focused on these       FDIC’s New York Regional Office uses a form entitled, ROE Tracking Log For All
  control processes because once the institution receives
  its proposed CAMELS ratings, subsequent changes
                                                              Reports of Examination, which serves as a cover sheet for the draft ROE and
  should be justified and approved to help ensure the         contains various information regarding the processing of the ROE, including the
  changes are adequately supported.                           EIC’s proposed CAMELS component and composite ratings. Two examples
                                                              provided by the regional office showed evidence of CAMELS rating changes—
                                                              specifically, the hand-written revised rating. According to New York regional
  Background                                                  personnel, the tracking forms are maintained in the region’s individual examination
  The FDIC is the primary federal regulator for over
                                                              files. Nevertheless, the region does not centrally track information on ratings
  5,200 state-chartered institutions. DSC conducts risk       changes for monitoring purposes even though evidence of ratings changes appears
  management examinations of FDIC-supervised                  to exist at the regional office. Further, the tracking forms do not document the
  financial institutions. The objective of an examination     justifications for the changes. Additionally, DSC’s San Francisco Regional Office
  is to help ensure a financial institution’s safety and      personnel told us that they use a similar form, the Examination Log Sheet, to record
  soundness and to minimize the degree of risk exposure       information regarding the processing of the ROE and that the form may be
  presented to the banking system and Deposit Insurance       annotated to reflect a rating change. However, the one example provided to us did
  Fund.                                                       not show evidence of a rating change.
  As part of each risk management examination, proposed
  examination ratings are assigned by examiners in the
                                                              Based on the results of our work, we concluded that DSC controls over changes to
  draft ROE. Each financial institution is assigned a         EIC-proposed CAMELS ratings could be enhanced. Enhanced controls for tracking
  composite rating based on an evaluation and rating of       and monitoring the justification and approval for CAMELS rating changes will
  the six essential components (noted earlier) of an          better assure that senior management is informed of ratings changes and help ensure
  institution's financial condition and operations.           the transparency and integrity of the ratings process.

  CAMELS ratings serve a number of purposes within the
  FDIC, including as input to the process of determining
                                                              Recommendation and Management Response
  deposit insurance premiums charged to financial
  institutions. Poorly rated institutions are subject to      We recommended that DSC revise the Case Manager Procedures Manual to require
  increased supervisory attention and potentially higher      that changes made to EIC-proposed CAMELS ratings in the draft ROE be centrally
  deposit insurance premiums and may be precluded from        managed by DSC, including tracking, monitoring, and maintaining the documented
  certain activity otherwise permitted by law or              justification and approval for changes. DSC generally agreed with our findings and
  regulation. It is important, therefore, that the FDIC       offered alternative corrective actions, including formalizing the guidance to staff on
  provide assurance to financial institutions that the        the required method for documenting unresolved differences related to final
  CAMELS rating process is consistently implemented           CAMELS ratings and developing a method to track those instances. Depending on
  and that institutions are treated equitably.
                                                              the content of the DSC guidance, we agree that DSC actions can substantially meet
  DSC’s Case Manager Procedures Manual provides               the intent of our recommendation to help ensure process integrity and transparency.
  procedures related to making changes to proposed            Nevertheless, we continue to believe that there is value in maintaining a record
  CAMELS ratings.                                             when there are changes to an EIC-proposed rating even when the EIC does not
                                                              ultimately contest that change, and we suggest that DSC also consider requiring
                                                              such a record during the course of formalizing its guidance in this area.
To view the full report, go to www.fdicip.gov/2008reports
Contents                                            Page


BACKGROUND                                            2
  DSC Guidance                                        2

RESULTS OF AUDIT                                      3

INTERNAL CONTROLS OVER THE RATING REVIEW PROCESS      5

INTERNAL CONTROLS OVER CHANGES TO PROPOSED CAMELS     5
RATINGS
  Conclusion                                          7
  Recommendation on Improving Internal Controls       7

CORPORATION COMMENTS AND OIG EVALUATION               8


APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                9
  2. RISK MANAGEMENT EXAMINATION PROCESS             13
  3. CORPORATION COMMENTS                            15
 4. MANAGEMENT RESPONSE TO RECOMMENDATION            17
 5. ACRONYMS USED IN THE REPORT                      18
Federal Deposit Insurance Corporation                                                             Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General


DATE:                                     August 12, 2008

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection



FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Controls Over the CAMELS Rating
                                          Review Process
                                          (Report No. AUD-08-014)


This report presents the results of our audit of the FDIC’s CAMELS rating review
process. 1 The Federal Financial Institutions Examination Council (FFIEC) 2 and state
banking agencies assign component and composite ratings based on the results of
periodic risk management examinations. The agencies use the CAMELS ratings as a
supervisory tool for uniformly evaluating the safety and soundness of financial
institutions and identifying those institutions requiring special attention. The audit
objective was to assess the internal controls the FDIC has established over the CAMELS
rating system for reviewing and changing proposed ratings included in the draft risk
management reports of examination (ROE).

The audit focused on the Division of Supervision and Consumer Protection’s (DSC) field
and regional office processes for reviewing proposed CAMELS ratings from the point at
which the FDIC Examiner-in-Charge (EIC) has notified the financial institution of the
preliminary ratings and has electronically submitted the draft ROE for supervisory
review. We focused on these control processes because once the institution receives its
proposed CAMELS ratings, subsequent changes should be justified and approved to help
ensure adequate support for changes. We conducted this performance audit in
accordance with generally accepted government auditing standards. Appendix 1 of this
report discusses our audit objective, scope, and methodology in detail.

1
  The Uniform Financial Institutions Rating System (UFIRS) was adopted by the Federal Financial
Institutions Examination Council in 1979. Under the UFIRS, each financial institution is assigned a
composite rating by a federal or state banking agency based on an evaluation and rating of six essential
components of an institution's financial condition and operations. These component factors address the
adequacy of Capital, the quality of Assets, the capability of Management, the quality and level of Earnings,
the adequacy of Liquidity, and the Sensitivity to market risk (otherwise known as CAMELS). A rating of
1 to 5 is assigned by the examiner, for each component factor and composite score, with 1 having the least
regulatory concern and 5 having the greatest concern.
2
  The agencies comprising the FFIEC are the Board of Governors of the Federal Reserve System, FDIC,
National Credit Union Administration, Office of the Comptroller of the Currency, and Office of Thrift
Supervision.
BACKGROUND

    The FDIC is the primary federal regulator for about 5,200 state-chartered financial
    institutions. Under section 10(d) of the Federal Deposit Insurance Act (FDI Act), the
    FDIC, in conjunction with the states, is required to conduct on-site full-scope
    examinations of each FDIC-supervised institution every 12-18 months, depending on
    asset size and bank performance, to assess the safety and soundness of the institution.
    The FDIC complies with this requirement by conducting risk management examinations,
    the objective of which is to assess an institution’s overall financial condition and identify
    risks. (Appendix 2 of this report discusses the risk management examination process in
    more detail.)

    CAMELS ratings serve a number of purposes within the FDIC, including as input to the
    process of determining deposit insurance premiums charged to financial institutions. The
    FDIC also uses the ratings to indicate the safety and soundness of individual institutions,
    to identify institutions requiring special supervisory attention, and to monitor industry
    trends. Poorly rated institutions are subject to potentially higher deposit insurance
    premiums and may be precluded from certain activities otherwise permitted by law or
    regulation. Therefore, it is important that the FDIC be able to provide assurance to
    financial institutions that the CAMELS rating process is consistently implemented and
    that institutions are treated equitably.

    Within DSC, the EIC has the primary responsibility for leading an examination team and
    completing the risk management examination. At the conclusion of the examination
    fieldwork, it is the EIC’s responsibility to prepare a preliminary ROE documenting the
    outcome of the risk management examination, including the proposed CAMELS
    component and composite ratings for the financial institution. The EIC holds an exit
    conference with the institution’s senior management (and the board of directors, as
    needed) to discuss the preliminary examination results and the CAMELS ratings. During
    the exit conference, the EIC informs the bank officials that the CAMELS ratings are
    subject to review and approval by FDIC management. Then, based on established
    delegations of authority, 3 the EIC submits the preliminary ROE to more senior field or
    regional management for final review and approval.


    DSC Guidance

    The primary guidance for conducting risk management examinations is contained in
    DSC’s Risk Management Manual of Examination Policies (Examination Manual). The
    Examination Manual discusses the specific criteria for the six CAMELS components and
    indicates that ROE comments should clearly support the corresponding ratings.
    Additionally, the ROE contains a Confidential-Supervisory Section where information of
    interest can be included for Case Managers (CM) or other field, regional, or Washington


    3
      The delegation of authority is the method by which authority is granted, to individuals holding a specific
    position, for making decisions or obligations on behalf of the Corporation.

                                                          2
    office management. We were told that this section of the ROE could be used by the EIC
    for indicating disagreements with CAMELS rating changes.

    Additional examination-related guidance is contained in DSC’s Case Manager
    Procedures Manual (CM Manual). The CM Manual states that the regional office CM
    will perform activities related to reviewing, analyzing, and processing ROEs. According
    to the CM Manual, for those ROEs reviewed at the field office, the field supervisor (FS),
    or designee, serves as the CM. The established delegations of authority determine who
    may eventually review and sign the final ROE. ROE review procedures described in the
    CM Manual include, among other things, the following:

    •   Ensure the report has been completed in accordance with written ROE instructions
        contained in the Examination Manual and Regional Directors (RD) Memoranda. If
        the ROE is not prepared in accordance with these guidelines or the findings are
        unclear, the CM should contact the EIC to resolve the differences. If ROE changes
        are necessary, the CM should discuss the changes with the EIC prior to the final
        processing of the ROE. Unresolved differences between the EIC, CM, and/or FS
        must be brought to the attention of the RD, or designee, for resolution prior to
        completion of the review.

    •   Ensure the proposed CAMELS ratings are appropriate. If a CAMELS component or
        composite rating change is considered, concurrence of the EIC should be sought. If
        the EIC concurs with the change, the new rating should be reflected throughout the
        ROE. If the EIC does not agree to change the originally proposed rating, the CM
        (with approval of the RD or designee) will draft a memorandum to the file supporting
        the rating change, with copies to the EIC and FS. The new rating should then be
        reflected throughout the ROE. Bank management should be informed of the change
        before DSC transmits the ROE to the bank.

    •   Ensure the final electronic version of the report is posted to the Completed
        Examinations folder in Microsoft Outlook for upload to the Interagency Examination
        Repository, a facility used to store completed risk management examination data for
        future review and download.


RESULTS OF AUDIT

    The FDIC has established internal controls for reviewing draft risk management ROEs,
    including the supervisory review of proposed CAMELS ratings. Specifically, after the
    EIC discusses tentative examination results and preliminary CAMELS ratings with the
    financial institution’s senior management, the EIC electronically submits the draft ROE
    to the region. Then, based on established delegations of authority, the draft ROE is
    submitted to either the FS, or designee, or to the regional office CM for review. Based on
    our review of DSC’s policies and procedures, discussions with field and regional office
    officials, and limited testing, we concluded that controls related to the review of draft


                                                3
ROEs were being implemented as intended (Internal Controls Over the Rating Review
Process).

Also, DSC has established a process for resolving disagreements between the EIC and
CM with respect to changes to proposed CAMELS ratings in draft ROEs. The resolution
process includes maintaining an open dialogue between the EIC and CM and requiring
the CM to bring unresolved differences to the attention of the RD, or designee, for
resolution prior to completion of the review. However, ROE review procedures do not
require that changes to proposed CAMELS ratings that are agreed to by the EIC (before
the ROE is signed) be documented or justified in writing—two well-recognized internal
controls to help ensure adequate support and proper approval for the changes.

Further, we found that none of the six DSC regions centrally maintains a record of all
CAMELS ratings changes and documentation justifying and approving changes to EIC-
proposed ratings in draft ROEs. Consequently, the regions and DSC headquarters are not
able to track or monitor changes to ratings resulting from the ROE review process. Due
to the absence of such centrally-maintained records, we were not able to determine the
frequency of, or justification and approval for, changes to EIC-proposed ratings.

However, two regions did maintain records that were useful. Specifically, the FDIC’s
New York Regional Office uses a form entitled, ROE Tracking Log For All Reports of
Examination, which serves as a cover sheet for the draft ROE and contains various
information regarding the processing of the ROE, including the EIC’s preliminary
CAMELS component and composite ratings. Two examples provided by the regional
office showed evidence of CAMELS rating changes—specifically, the hand-written
revised rating. According to the New York Regional Office personnel, the tracking
forms are maintained in the region’s individual examination files. Although evidence of
ratings changes appears to exist at the regional office, the region does not centrally track
information on ratings changes for monitoring purposes. Additionally, according to DSC
San Francisco Regional Office officials, the San Francisco Regional Office uses a similar
form, the Examination Log Sheet, to record information regarding the processing of the
ROE. It too includes the CAMELS ratings as proposed by the EIC. According to
regional officials, the form may be annotated to reflect a rating change. The one example
the regional office gave to us did not show evidence of a rating change.

Based on the results of our work, we concluded that DSC controls over changes to EIC-
proposed CAMELS ratings could be enhanced. Enhanced controls for tracking and
monitoring the justification and approval for CAMELS rating changes will better inform
FDIC senior management of rating changes and help ensure the transparency and
integrity of the ratings process (Internal Controls Over Changes to Proposed
CAMELS Ratings).




                                             4
INTERNAL CONTROLS OVER THE RATING REVIEW PROCESS

    The draft ROE review process relies on the use of delegated authority to align risk with
    the appropriate level of supervisory review. According to officials at each of the six DSC
    regional offices, the primary internal control in the draft ROE review process is the
    supervisory review function. Specifically, every draft ROE receives a supervisory review
    by a field or regional office official, in accordance with established delegations of
    authority, before the ROE is finalized. The draft ROE review process contains other
    controls, including: policies and procedures related to the examination process, clear
    guidance on the rating criteria for assigning component and composite CAMELS ratings,
    and comprehensive training of examiner and reviewer personnel.

    In assessing DSC’s ROE review process from the time an EIC discusses the preliminary
    ROE and CAMELS ratings with an institution’s board, we determined that EICs
    electronically submit the draft ROE to the regional office using a predetermined
    distribution list. The draft ROE is then printed in hard copy by an administrative focal
    point who then, based on the delegations of authority, distributes the ROE to either the
    FS or the regional office CM for review and approval. The larger and more complex
    institutions, or those institutions with noted problems, receive higher-level attention and
    scrutiny, which can occur before presentation to the institution’s board. Additionally,
    ROEs of 1- and 2-rated institutions are generally reviewed and signed by the FS at the
    field office, while ROEs for institutions with a 3 rating or higher are reviewed and signed
    at the regional office.


INTERNAL CONTROLS OVER CHANGES TO PROPOSED CAMELS RATINGS

    DSC controls over changes to proposed CAMELS ratings could be enhanced.
    Specifically, controls are in place to document circumstances when a reviewer changes a
    CAMELS rating proposed by the EIC and when the EIC does not agree with the change.
    However, DSC has not established controls to document when ratings changes are
    agreed-upon by the EIC and CM or FS. Moreover, changes to proposed CAMELS
    ratings are not routinely documented, justified, or tracked. Accordingly, the CAMELS
    rating process is not as transparent as it could be.

    According to DSC regional officials, changes to proposed CAMELS ratings are rare.
    Several CMs indicated that they could recall only 2-3 changes to a proposed CAMELS
    component or composite rating over the course of a year. According to the CM Manual,
    reviewers are required to discuss necessary changes to the draft ROE with the EIC prior
    to making any changes and processing the final ROE. If the EIC agrees with the
    suggested change, the rating is changed, the review process continues, and the ROE is
    signed. (It is important to note that where the EIC agrees with the suggested rating
    change, there is no requirement to either obtain the approval of a higher-level official or
    document the justification for the change.) In contrast, according to the CM Manual,
    unresolved differences between the EIC and reviewer are required to be brought to the


                                                 5
attention of the RD, or designee, for resolution, thus providing an audit trail of the
decision-making process. Specifically, in this regard, the CM Manual states:

         If the EIC does not agree to change the originally assigned rating, the CMs (with
         the approval of the Regional Director or designee) will draft a memorandum to
         the file to support the rating change with copies to the EIC and Field Supervisor.

Although documentation in the form of a memorandum to the file is required, none of the
regional officials we spoke with provided evidence of such a memorandum. Further, we
specifically asked DSC officials in all six regions for examples or evidence of proposed
rating changes or memorandums of the disagreements. However, only the New York
Regional Office could provide us documentation showing where a proposed CAMELS
rating had been changed. Personnel from the San Francisco Regional Office gave us a
sample Examination Log Sheet, which they stated may be annotated to reflect a
CAMELS rating change.

We determined that all six regional offices follow the same ROE review procedures.
However, the New York Regional Office augments these procedures by using an ROE
Tracking Log For All Reports of Examination, and the San Francisco Regional Office
uses the Examination Log Sheet. In both cases, the document serves as a cover sheet for
the draft ROE and contains various information regarding the processing of the ROE,
including the EIC’s proposed CAMELS component and composite ratings. According to
the regional personnel, the forms are maintained in the region’s individual examination
files. Therefore, evidence of ratings changes may exist in the New York and San
Francisco Regional Offices, but those regions do not centrally track information on
ratings changes for monitoring purposes and do not document the justification and
approval for changes. Consequently, each examination file would need to be reviewed to
determine whether a particular examination included a change to the proposed CAMELS
ratings in the draft ROE.

Although not a requirement, the EIC’s proposed CAMELS ratings may be captured in
several other documents during the report review process. According to many Assistant
Regional Directors and CMs we interviewed, it has been a practice for DSC regional
officials to use the Confidential-Supervisory Section of the ROE to discuss proposed
rating changes, particularly if there is any disagreement over the change. However, no
one provided us with examples showing a discussion of disagreements in the
Confidential-Supervisory Section. Finally, we were told that the Report of Examination
Review Feedback Form 4 may contain comments regarding a proposed CAMELS rating
change. DSC officials acknowledged, however, that this form is primarily a training or

4
  After the final ROE is issued, the FS or CM prepares a Report of Examination Review Feedback Form
(Feedback Form), which is intended to provide constructive feedback on the ROE. According to the
instructions for completion, the form should give reasons for substantive report changes. The reviewer is to
provide constructive commentary on the strengths and weaknesses of the ROE, addressing each of the
broad categories included in the form. The form is routed, as appropriate, to either the Assistant Regional
Director or the FS. The EIC reviews the feedback form and discusses any questions, concerns, or
disagreements about the feedback with the FS or Supervisory Examiner. In effect, feedback promotes the
continuation of high-quality reports and, when appropriate, aids EICs in improving subsequent reports.

                                                     6
      instructional tool and is not retained in either the EIC’s personnel file or the examination
      file.

      According to regional officials, the only consistent practice among the regional offices
      regarding the handling of proposed CAMELS rating changes seems to be that, if the
      proposed CAMELS ratings are changed during the ROE review process, the EIC notifies
      the bank’s management of any rating change either orally before the final ROE is issued
      or in the final ROE transmittal letter. If bank management chooses to challenge the
      CAMELS ratings in the final ROE, the bank will use the FDIC’s independent intra-
      agency appeals process.

      Although all the DSC regional officials we interviewed acknowledged that CAMELS
      rating changes are not always documented, justified, or tracked, it is important to note
      that there is no requirement to do so. DSC regional officials provided similar responses
      regarding why such changes were not routinely documented or tracked. For example,
      several officials stated that comparing the EIC’s originally proposed CAMELS ratings
      with the final ratings transmitted to the institution in the final ROE would be a waste of
      time because a draft ROE is subject to changes until it becomes a final. The official went
      on to say that the final ROE is the important outcome after much communication and
      dialogue between the reviewer, the EIC, and other pertinent staff in order to reach
      agreement on the final assigned CAMELS ratings; and it is the final ROE that is
      presented to the bank.


Conclusion

      According to DSC officials, changes to CAMELS ratings initially proposed by EICs,
      though rare, do occur, and often, there is no written record of the rating change or a
      written justification for the change. Accordingly, we concluded that DSC controls over
      changes to EIC-proposed CAMELS ratings could be enhanced. Enhanced controls,
      including the written justification and approval for proposed CAMELS rating changes
      and the tracking and monitoring of such changes, will better assure that senior
      management is informed of rating changes and help ensure the transparency and integrity
      of the CAMELS ratings process.


Recommendation on Improving Internal Controls

      We recommend that the Director, DSC:

      Revise the Case Manager Procedures Manual to require that changes made to EIC-
      proposed CAMELS ratings in the draft ROE be centrally managed by DSC, including
      tracking, monitoring, and maintaining the documented justification and approval for
      changes.




                                                    7
CORPORATION COMMENTS AND OIG EVALUATION

    On August 5, 2008, the Director, DSC, provided a written response to the draft of this
    report. Management’s response is presented in its entirety in Appendix 3. Management
    generally agreed with our findings and offered alternative actions to meet the intent of
    our recommendation. A summary of management’s response to the recommendation is
    in Appendix 4.

    In response to the recommendation, DSC stated it believes its process for deliberating and
    resolving differences of opinion regarding EIC-proposed CAMELS ratings is strong and
    effective. DSC further stated that it fosters an atmosphere that encourages open
    deliberation and will continue to emphasize the importance of high quality dialogue on
    ratings between examiners, Case Managers, and supervisors. DSC agreed that it is
    important that raising differences with no stigma attached is vital to ensure process
    integrity and that maintaining a procedure to document unresolved differences of opinion
    is significant and could be enhanced.

    To meet the intent of the recommendation, DSC will formalize the guidance to staff on
    the required method for documenting unresolved differences related to final CAMELS
    ratings. DSC will also develop a method to track those instances. DSC stated that it will
    complete these actions by June 30, 2009.

    DSC’s planned actions are potentially responsive to our recommendation. Specifically,
    we agree that DSC actions can substantially meet the intent of our recommendation to
    ensure process integrity through emphasizing open deliberation and high-quality dialogue
    on ratings and recognition of the importance of raising differences with no stigma
    attached. Concerning transparency, proposed actions to document and track unresolved
    differences can help keep FDIC management informed of the justification and approval
    for ratings changes. We continue to believe that there is value in maintaining a record
    when there are changes to an EIC-proposed rating even when the EIC does not ultimately
    contest that change. Such records would enable higher-level management to detect any
    pattern of changes within a given area during the course of DSC’s periodic field
    oversight, and we suggest that DSC also consider requiring such a record during the
    course of formalizing its guidance in this area. Nevertheless, the recommendation is
    considered resolved but will remain open until we determine that the agreed-to corrective
    actions have been completed and are responsive.

    Further, in its response, DSC provided clarifying information concerning the examination
    process where CAMELS ratings of 3, 4, or 5 are being deliberated. In these cases, the
    EIC consults extensively with responsible Case Managers, supervisors, and Subject
    Matter Experts regarding both ratings and supervisory actions. Our report noted that
    larger or more complex institutions or those with problems resulting in higher ratings
    receive increased scrutiny. We made modifications to our report, as appropriate, to
    reflect this additional information.




                                                8
                                                                                                  APPENDIX 1
                             OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

      The objective of this audit was to assess the internal controls the FDIC has established
      over the CAMELS rating system for reviewing and changing proposed ratings included
      in draft risk management ROEs. We conducted this performance audit from February
      through May 2008 in accordance with generally accepted government auditing standards.
      Those standards require that we plan and perform the audit to obtain sufficient and
      appropriate evidence to provide a reasonable basis for our findings and conclusions based
      on our audit objectives. We believe that the evidence obtained provides a reasonable
      basis for our findings and conclusions based on our audit objective.


Scope and Methodology

      We reviewed FDIC policies and procedures manuals related to the ROE review process.
      We interviewed a DSC Risk Management and Applications Section Chief from DSC’s
      Washington Office regarding the ratings appeals process, an Associate Ombudsman from
      DSC’s Washington Office, and the Dallas Regional Office Ombudsman.

      We performed our test work in the Dallas Regional Office where we interviewed the
      DSC Risk Management Deputy Regional Director, Assistant Regional Director (ARD),
      several CMs, a DSC FS, a Supervisory Examiner, and an administrative assistant who
      handles the electronic reporting requirements. We received a DSC listing of all risk
      management ROEs completed in 2006 and 2007 for FDIC-supervised institutions, by
      regional office. The list showed 7,831 ROEs: 4,049 ROEs for 2006, and 3,782 ROEs for
      2007. The Dallas Regional Office issued 409 ROEs in 2007. We judgmentally selected
      a non-statistical sample 5 of four recently completed Dallas Regional Office ROEs for
      review. Specifically, for each ROE, we looked at the Confidential-Supervisory Section
      for pertinent comments about the CAMELS ratings and the proper use of delegated
      authority. We also reviewed the examination files for each of the four financial
      institutions, looking for evidence or documentation that CAMELS rating changes may
      have occurred. We then focused our audit work on interviewing responsible DSC risk
      management officials in the other regional offices.

      We consulted with the DSC Internal Control Review (ICR) Section and selected two
      additional DSC Regional Offices for site visits—Atlanta and San Francisco. Where
      pertinent, we looked at the bank examination files. We held telephone conference calls
      with DSC officials in the other three regional offices—Chicago, Kansas City, and New
      York. We made arrangements through the headquarters ICR to interview appropriate risk
      management CMs, ARDs, and several Deputy Regional Directors. We assessed the
      activities associated with the receipt of the EIC’s draft ROE and subsequent field,
      regional, and headquarters review efforts leading to the final ROE. This included a
      review of the CM functions, supervisory oversight of the examination and reporting

      5
        The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.

                                                            9
                                                                                APPENDIX 1


      process, and the use of management monitoring tools/reports. We also reviewed
      pertinent DSC ICR reports on each DSC regional office.


      Internal Control

      To obtain an understanding of the FDIC risk management examination and reporting
      processes, we reviewed relevant FDIC and DSC policies and guidelines, including the:

          •   FDIC’s Risk Management Manual of Examination Policies, Section 16.1, Report
              of Examination Instructions

          •   FDIC’s Case Manager Procedures Manual, Section 3.1, FDIC Full Scope
              Reports

          •   DSC Director’s Memorandum, Report of Examination Review Feedback, Form
              6600-53, dated August 26, 2004

          •   DSC Directors Memorandum, Administration of Delegations of Authority, dated
              May 27, 2005

          •   DSC Director’s Memorandum, Relationship Manager Program Implementation,
              dated September 30, 2005

          •   DSC Memorandum, Internal Control and Review Section, Structure and Internal
              Review Changes, dated February 8, 2006

          •   RD Memorandum ROA-06-014, Delegations of Authority to Sign Supervision,
              Compliance, and Applications Documents, dated October 13, 2006

          •   RD Memorandum RO-07-019, Examiner Call-in Memorandum, dated August 28,
              2007

      We also obtained an understanding of the internal controls appropriate and pertinent to
      reporting, supervisory oversight, and the handling of financial institution complaints as
      outlined in the above DSC policies and procedures. We flowcharted the various
      processes and identified the key internal controls. Finally, we reviewed U.S. Government
      Accountability Office (GAO) Standards for Internal Control in the Federal Government
      and GAO’s Internal Control Management and Evaluation Tool.


Reliance on Computer-processed Information

      For purposes of the audit, we did not rely on computer-processed information to support
      our significant findings, conclusions, or recommendations. Our assessment centered on
      reviews of ROEs from the time the EIC prepares the ROE, using the GENESYS report

                                                 10
                                                                                               APPENDIX 1


      platform, and forwards the ROE, using Outlook, to the region for review. 6 Accordingly,
      we did not consider it necessary to develop procedures to assess the reliability of data
      stored in GENESYS.


Performance Measurement

      We reviewed annual performance plans and FDIC strategic plans to identify goals,
      objectives, and results and determine whether the Corporation has (1) established
      quantifiable performance measures and (2) developed and analyzed data to assess
      program, project, or function performance related to conducting periodic risk
      management examinations.

      In its 2008 Annual Performance Plan, the FDIC has a strategic goal that FDIC-
      supervised institutions are safe and sound and a strategic objective that FDIC-supervised
      institutions appropriately manage risks. The plan also contains an annual performance
      goal to conduct on-site risk management examinations to assess the overall financial
      condition, management practices and policies, and compliance with applicable laws and
      regulations of FDIC-supervised depository institutions. These strategic goals and
      objectives do not directly relate to control over the CAMELS rating review process.

      In addition, we reviewed the FDIC’s 2005-2010 Strategic Plan, 2007 Annual
      Performance Plan, 2008 Strategic Priorities, and 2008 Corporate Performance
      Objectives.


Compliance With Laws and Regulations

      We reviewed applicable laws and regulations related to the FDIC’s conduct of on-site
      risk management examinations of each FDIC-supervised institution. We found no
      instances where the FDIC was not in compliance with applicable laws and regulations.

      We assessed the risk of fraud and abuse related to the audit objective in the course of
      evaluating audit evidence.


Prior Coverage

      In March 2004, we issued Audit Report No. 04-015 entitled, Division of Supervision and
      Consumer Protection’s Supervisory Appeals Process. The overall objective of the audit
      initially was to determine whether DSC followed appropriate procedures in upgrading a
      preliminary examination component rating of an institution and in processing the

      6
        GENESYS is an interagency automated product for bank examination. The GENESYS application is
      generally used to plan the examination, analyze the financial condition of the bank, review management's
      involvement in the bank operations, and develop the ROE. The GENESYS information is transmitted to
      the Interagency Examination Repository via the Examination Transmittal Outlook process for the FDIC.

                                                          11
                                                                             APPENDIX 1


institution’s appeal of its final safety and soundness examination ratings. The Office of
Inspector General (OIG) determined that the DSC regional office complied with
procedures related to upgrading a preliminary examination component rating. Consistent
with those procedures, FDIC and state examiners held discussions with bank
management regarding its concerns with the preliminary ratings during the course of the
examination. In addition, the Regional Director acted within delegated authority when
changing the preliminary component rating. However, with respect to the bank’s formal
appeal of the final examination ratings, the appeals procedures did not require an
independent DSC analysis of examination information relevant to an appeals case when
critical examination findings are not fully supported. Further, DSC did not fully
coordinate with the state regulatory authority throughout the appeals process, even
though the examination was conducted jointly. Finally, during the appeals process, both
the DSC regional and Washington offices had considered information on institution
actions implemented after the timeframe covered by the examination, which is contrary
to FDIC policy.

The OIG recommended that DSC enhance and enforce current appeals procedures for
material supervisory determinations to help ensure that the FDIC appeals process is
administered in a fair, efficient, and effective manner and that fully informed decisions
are made that are reflective of the merits of the case at the time of the supervisory
determination.




                                             12
                                                                               APPENDIX 2
                 RISK MANAGEMENT EXAMINATION PROCESS


The purpose of conducting a risk management examination is to assess an institution’s
overall financial condition, review management practices and policies, monitor adherence
with banking laws and regulations, review internal control systems, identify risks, and
uncover fraud or insider abuse. This examination process is articulated in DSC’s Risk
Management Manual of Examination Policies. The overall outcome is the
CAMELS/composite rating for a particular financial institution.

The FDIC’s risk management safety and soundness examinations consist of three parts:
pre-examination planning (PEP), on-site examination, and completion of the ROE. Pre-
examination planning generally takes place off-site at the field office, where the EIC
completes an analysis and review of the institution, contacts the institution for financial
records, and develops an examination work plan. During this stage, the EIC decides on
areas that need special attention and on the work that will be done first. The EIC
prepares a PEP memorandum to document the initial conclusions relative to the perceived
risk an institution poses and the examination procedures that will be used. Examination
instructions tell the examiner to summarize significant discussion topics, such as risk
areas; management’s concerns regarding economic conditions; and any other data
meaningful to the examiner’s efforts to allocate examination resources. Also, the PEP
memorandum should mention targeted risk areas, specifying areas with more than normal
risk to which the EIC intends to devote additional or “above-normal” examination
resources; and the proposed loan scope, with emphasis on risk areas within the portfolio
where the loan file review will be concentrated.

Once on-site at the institution, the examiners concentrate on the institution’s asset quality,
financial condition, and operations. Additionally, the examination team evaluates the
institution’s adherence to banking laws and regulations, the adequacy of the institution’s
internal controls and procedures, and the capability of management reporting systems to
provide reliable and accurate data. At the end of the examination cycle, the EIC prepares
a consolidated report using the GENESYS report platform. The ROE is intended to
factually present the institution’s condition, identify problems, provide management with
suggestions and recommendations, and disclose the examination ratings. The ROE, in
other words, documents the results of the examination and the basis on which the
composite rating was determined.

Prior to the exit meeting with the financial institution, the EIC, under certain conditions,
is required to prepare an Examiner Call-In Memorandum to alert the appropriate regional
CM and ARD of pending examination results. Specifically, regional management must
be informed if the:

   •   institution is currently assigned a composite rating of a 3 or worse;
   •   EIC plans to downgrade an institution to a rating of a 3 or worse;
   •   bank is operating pursuant to an outstanding corrective action plan;
   •   examination has identified unusual or complex matters that warrant the attention
       and oversight of regional management; and


                                             13
                                                                               APPENDIX 2


   •   examination identified concerns of such magnitude as to warrant a downgrade in
       the management or composite rating of the bank to a 3 or worse.

Subsequent to submission of the memorandum, the EIC is instructed to call the CM or
ARD to discuss the preliminary findings and proposed CAMELS ratings prior to meeting
with institution management where the findings/ratings would be discussed so as to allow
for the possibility of a representative from regional management to attend the exit and or
board meeting.

The EIC holds an exit conference with the institution’s senior management and board of
directors to discuss the preliminary examination results and CAMELS ratings. At the
exit meeting with the financial institution, the preliminary CAMELS ratings are
discussed. Bank officials are informed that these CAMELS ratings are preliminary and
subject to the review and approval by FDIC management.

The EIC’s draft ROE is submitted, using Outlook, to the Regional Office for review and
approval. The ROE is received by the administrative staff and downloaded into hard
copy format for supervisory review. Typically, the field office reviews those financial
institutions that have composite 1 and 2 ratings, less than $10 billion in assets, less than a
3 rating for management, and fewer than two 3-rated components. All other ROEs are
reviewed at the regional office level. According to DSC regional officials, if the
CAMELS ratings are changed during the regional office review, the EIC notifies the
bank’s management of the rating change either orally before issuance of the final ROE or
in the final ROE transmittal letter. If bank management chooses to challenge the
CAMELS ratings in the final ROE, the bank will use the FDIC’s independent intra-
agency appeals process.




                                              14
     APPENDIX 3




16
                                                      APPENDIX 4
                 MANAGEMENT RESPONSE TO RECOMMENDATION


This table presents the management response on the recommendation in our report and
the status of the recommendation as of the date of report issuance.


    Corrective Action: Taken or          Expected       Monetary       Resolved:a        Open or
          Planned for the               Completion      Benefits       Yes or No         Closedb
         Recommendation                    Date
DSC will formalize the guidance to     June 30, 2009         $0       Yes             Open
staff on the required method for
documenting unresolved
differences related to final
CAMELS ratings. Further, DSC
will develop a method to track
those instances.


a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                    corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendation, the recommendation can be closed.




                                                   17
                                                              APPENDIX 5
          ACRONYMS USED IN THE REPORT


ARD       Assistant Regional Director
CAMELS    Capital, the quality of Assets, the capability of Management, the
          quality and level of Earnings, the adequacy of Liquidity, and the
          Sensitivity to market risk
CM        Case Manager
DSC       Division of Supervision and Consumer Protection
EIC       Examiner-in-Charge
FDI Act   Federal Deposit Insurance Act
FFIEC     Federal Financial Institutions Examination Council
FS        Field Supervisor
FRB       Federal Reserve Board
GAO       Government Accountability Office
GENESYS   General Examination System
ICR       Internal Control Review
OIG       Office of Inspector General
PEP       Pre-Examination Planning
RD        Regional Director
ROE       Report of Examination
UFIRS     Uniform Financial Institutions Rating System




                              18
